Information Report




OIG-CA-11-006
Dodd-Frank Act: Congressional Request for Information
Regarding Economic Analysis by OCC
June 13, 2011




Office of
Inspector General
Department of the Treasury
Contents

Information Report ..........................................................................                 1

   Response to Information Request .................................................................. 2

   Recommendations ....................................................................................... 13


Appendices

   Appendix 1:         Request to the Inspector General of the Department of
                       the Treasury for Information Regarding Economic Analysis
                       by the Office of the Comptroller of the Currency ......................                15
   Appendix 2:         Management Comments ........................................................           20
   Appendix 3:         Major Contributors to This Report ...........................................          21
   Appendix 4:         Report Distribution ................................................................   22


Abbreviations

   Dodd-Frank Act Dodd-Frank Wall Street Reform and Consumer Protection Act
   EO             Executive Order
   OCC            Office of the Comptroller of the Currency
   OMB            Office of Management and Budget
   PRA            Paperwork Reduction Act




                       Congressional Request for Information Regarding Economic Analysis by OCC          Page i
                       (OIG-CA-11-006)
         This page intentionally left blank.




Congressional Request for Information Regarding Economic Analysis by OCC   Page ii
(OIG-CA-11-006)
                                                                           Information
OIG
The Department of the Treasury
                                                                              Report
Office of Inspector General




                  June 13, 2011

                  John G. Walsh
                  Acting Comptroller of the Currency

                  This report presents the results of our review of the economic
                  analyses performed by the Office of the Comptroller of the
                  Currency (OCC) related to rulemaking in order to implement the
                  Dodd-Frank Wall Street Reform and Consumer Protection Act (P.L.
                  111-203) (Dodd-Frank Act). This review was conducted in
                  response to a request for information our office received from the
                  Ranking Member and other members of the Senate Committee on
                  Banking, Housing, and Urban Affairs. The request letter is provided
                  as appendix 1.

                  The objective of our review was to determine OCC’s processes for
                  performing economic analyses in support of rulemaking and how
                  those processes considered the costs, benefits, and economic
                  impact of certain proposed rules promulgated as a result of the
                  Dodd-Frank Act.

                  We conducted our review in May and June 2011. In preparing our
                  response to the request, we (1) reviewed relevant laws, executive
                  orders (EO), and other guidance; and (2) requested, obtained and
                  reviewed relevant information and documentation from OCC. In
                  addition, we interviewed key OCC officials involved in the
                  rulemaking process and related economic analyses. As
                  recommended in the request, we limited our review of OCC’s use
                  of economic analysis in rulemaking to the following three proposed
                  rules: (1) Credit Risk Retention, 76 FR 24090 (April 29, 2011);
                  (2) Risk-Based Capital Standards: Advanced Capital Adequacy
                  Framework – Basel II, Establishment of a Risk-Based Capital Floor,
                  75 FR 82317 (Dec. 30, 2010); and (3) Margin and Capital




                  Congressional Request for Information Regarding Economic Analysis by OCC   Page 1
                  (OIG-CA-11-006)
                         Requirements for Covered Swap Entities, 76 FR 27564 (May 11,
                         2011). 1

                         In brief, we found that OCC has processes in place to ensure that
                         required economic analyses are performed consistently and with
                         rigor in connection with its rulemaking authority. Furthermore, we
                         found that those processes were followed for the three proposed
                         rules we reviewed. We are making two recommendations in this
                         report. Specifically, OCC should (1) develop procedures to ensure
                         the coordination between the groups calculating administrative
                         burden for various analyses and (2) update internal guidance to
                         reflect the current statutory environment governing the rulemaking
                         and related economic analysis processes, and develop related
                         written procedures. Additionally, we noted that there was no
                         formal process in place that provides for coordination on economic
                         analyses between OCC and the other federal banking agencies.

Responses to Information Request
                   1.    Description of any statutory or other requirements to perform
                         economic analysis.

                         The following authorities apply to OCC with regard to performing
                         specific analyses when promulgating regulations.

                         •     Regulatory Flexibility Act - This act requires federal agencies
                               to give special consideration to the impact of regulation on
                               small businesses. The act specifies that initial and final




1
    The proposed rule was published after the date of the congressional request.

                         Congressional Request for Information Regarding Economic Analysis by OCC   Page 2
                         (OIG-CA-11-006)
                              regulatory flexibility analyses 2 must be prepared for a
                              regulation that will have a significant impact on a substantial
                              number of small entities. The economic analysis that the
                              agency prepares should incorporate the regulatory flexibility
                              analysis, as appropriate. (5 U.S.C. § 601-12)
 
                        •     Paperwork Reduction Act (PRA) - This act requires an analysis
                              of burden to the public whenever an agency seeks to gather
                              information from the public. 3 (44 U.S.C. § 3507(a))
 
                        •     Riegle Community Development and Regulatory Improvement
                              Act - This act requires OCC to weigh the benefits and
                              administrative burdens of a new regulation when determining
                              the regulation’s effective date and administrative compliance
                              requirements. (12 U.S.C. § 4802(a))

                  2.    Description of any internal policies, procedures, and guidance that
                        OCC uses to ensure rigor and consistency in the economic analysis
                        of its proposed rules.

                        OCC has processes in place to ensure the rigor and consistency of
                        economic analysis performed in connection with rulemaking. These
                        processes were developed and in place prior to passage of the
                        Dodd-Frank Act when the OCC was still subject to EO 12866,

2
  Initial and final regulatory flexibility analyses are to contain, among other things (1) a statement of the
objectives of, and legal basis for, the proposed rule; (2) a description of and, where feasible, an
estimate of the number of small entities to which the proposed rule will apply; and (3) a description of
the projected reporting, recordkeeping and other compliance requirements of the proposed rule. An
initial regulatory flexibility analysis is to also contain a description of any significant alternatives to the
proposed rule which accomplish the stated objectives of applicable statutes and which minimize any
significant economic impact of the proposed rule on small entities. A final regulatory flexibility analysis
is to include a description of the steps the agency has taken to minimize the significant economic
impact on small entities, including a statement of the factual, policy, and legal reasons for selecting the
alternative adopted in the final rule and why each one of other alternatives were rejected. These
analyses are not necessary if the head of the agency certifies that the rule will not, if promulgated, have
a significant economic impact on a substantial number of small entities.
3
  Agencies are to establish a process to evaluate whether or not proposed collections of information
should be undertaken. The process is to include (1) an evaluation of the need for the collection of
information; (2) a functional description of the information to be collected; (3) a plan for the collection
of the information; (4) a specific, objectively supported estimate of burden; and (5) a plan for the
efficient and effective management and use of the information that is to be collected.

                        Congressional Request for Information Regarding Economic Analysis by OCC        Page 3
                        (OIG-CA-11-006)
                       Regulatory Planning and Review, 4 Office of Management and
                       Budget (OMB) Circular A-4 Regulatory Analyses, 5 and the
                       Unfunded Mandates Reform Act of 1995. 6 The processes are
                       designed to comply with the tenets of these governing rules as
                       well as the Regulatory Flexibility Act and PRA.

                       Procedures covering the rulemaking process, as a whole, are
                       detailed in the OCC’s Guide to Rulemaking Procedures: A Staff
                       Manual and OCC Policies and Procedures Manual 1000-10: Internal
                       OCC Review Processes for Policymaking, Rulemaking, and Other
                       Significant Documents. These procedures provide a framework for
                       rule development, presentation, public comment, evaluation, and
                       approval. They detail regulatory requirements for the performance
                       of economic analysis in support of rulemaking and procedures
                       governing the timing and role of the analysis in the overall
                       development, evaluation, and approval of rules. These materials
                       include requirements for analysis to support the determination of
                       rule significance, the more in-depth economic analysis required for
                       significant rulemaking, and a description of the process by which
                       the analysis is included in rulemaking packages reviewed by OCC
                       senior officials.

                       A process for the actual preparation, review, and approval of
                       economic analysis in support of rulemaking is in place but has not
                       been documented in a formal policies and procedures manual. In
                       practice, economists within the OCC Policy Analysis Division work
                       with personnel from the OCC Legislative and Regulatory Activities
                       Division and subject matter experts elsewhere in OCC to gain an
                       understanding of the proposed rule and its potential impacts. The

4
  Issued September 30, 1993, the stated objectives of this EO are to enhance planning and coordination
with respect to new and existing regulations; to reaffirm the primacy of federal agencies in the
regulatory decision-making process; to restore the integrity and legitimacy of regulatory review and
oversight; and to make the process more accessible and open to the public. Among other things, the EO
requires covered agencies to assess both the costs and the benefits of the intended regulation and,
recognizing that some costs and benefits are difficult to quantify, propose or adopt a regulation only
when a reasoned determination is made that the benefits of the intended regulation justify its costs.
5
  Issued September 17, 2003, Circular A-4 provides OMB’s guidance to federal agencies on the
development of regulatory analysis as required under EO 12866, and other related authorities.
6
  The Unfunded Mandates Reform Act of 1995, P.L. 104-4, requires Congress and federal agencies to
consider the costs and benefits to state, local, and tribal governments and to the private sector before
imposing federal requirements that necessitate spending by those governments or the private sector.

                       Congressional Request for Information Regarding Economic Analysis by OCC   Page 4
                       (OIG-CA-11-006)
economists develop quantitative and qualitative measures of the
potential costs and benefits of the proposed regulation. The
principles of EO 12866 and OMB Circular A-4 are used as general
guidance when constructing the analysis. However, the specific
methodologies used may differ from rule to rule and are developed
based on the economist’s expertise, the data available, and an
understanding of the rule and effected markets gained from
collaboration with other OCC economists and legal and supervisory
personnel.

As the proposed rule moves through the evaluation and approval
process, the initial analysis is incrementally updated based on input
from senior OCC officials and public comments. Alternatives are
developed by considering realistic variations on the proposed rule
and are presented in the analysis with a summary of their potential
impact. A summary of the quantitative and qualitative
methodologies used, critical assumptions, calculations, alternatives
and results are documented in an economic analysis memorandum.
This memorandum is supported with the documents, both
hardcopy and electronic, used in the development of the analysis.

The Director of the OCC Policy Analysis Division is ultimately
responsible for the quality of economic analysis prepared in support
of rulemaking. The Director told us that prior to the submission of
the economic analysis memorandum to OCC senior officials; he
reviews the analysis to ensure its overall validity and quality. This
review may not always be formally documented; however, it
generally entails scrutiny of the methodology, assumptions, and
qualitative factors along with a check of the accuracy of any
calculations.

During our review, we noted two matters related to written
procedures that should be addressed by OCC management.

•   OCC’s Guide to OCC Rulemaking Procedures: A Staff Manual
    reflects the statutory environment governing OCC rulemaking
    prior to the Dodd-Frank Act, which re-defined OCC as an




Congressional Request for Information Regarding Economic Analysis by OCC   Page 5
(OIG-CA-11-006)
                         independent regulatory agency. 7 Accordingly, the manual details
                         procedures for compliance that are no longer applicable to OCC.
                     •   The processes within the OCC Policy Analysis Division for
                         preparing, documenting, and approving economic analysis
                         related to rulemaking have not been documented in written
                         procedures.

                3.   Assessment of the degree to which relevant OCC staff understand
                     and follow statutory and OCC’s own requirements.

                     Through discussions with management and staff within the OCC
                     Policy Analysis Division, we determined that the individuals
                     responsible for preparing economic analysis are very much aware
                     of and understand the statutory, regulatory, and internal
                     requirements governing the rulemaking process and related
                     economic analysis. This awareness has been accomplished through
                     use of the OCC rulemaking guide, on the job training, and close
                     collaboration between the economists performing the analysis and
                     OCC lawyers who guide the rulemaking process. In addition,
                     economists within the OCC Policy Analysis Division attend external
                     training classes and conferences to keep up to date on issues for
                     which they are responsible.

                4.   Assessment of the degree to which OCC complies with these
                     requirements.

                     Through our review of the three OCC proposed rules listed in the
                     May 4, 2011, request for information, we determined OCC does
                     follow statutory, regulatory, and its own internal requirements
                     relevant to rulemaking and related economic analysis.

                5.   Description of any discretionary economic analysis that OCC
                     voluntarily undertakes on a regular or ad hoc basis in order to
                     ensure that its rulemaking is effective and efficient.

                     An OCC official stated that OCC does not perform any
                     discretionary economic analysis.


7
  Section 315 of the Dodd-Frank Act amended 44 U.S.C. § 3502(5) to designate OCC as an
independent regulatory agency for purposes of Federal Information Policy.

                     Congressional Request for Information Regarding Economic Analysis by OCC   Page 6
                     (OIG-CA-11-006)
6.   Assessment of the relevant qualifications of the staff who conduct
     economic analysis.

     Economic analysis in connection with OCC rulemaking is performed
     by economists in the OCC Policy Analysis Division under the
     direction of the Director of the Policy Analysis Division. The
     Director holds a bachelor’s degree in economics, has completed
     coursework for a doctorate in economics, and possesses over 30
     years of experience as a financial economist. The analyses subject
     to our review were prepared by a Senior Financial Economist. He
     holds a PhD in economics and, prior to his time with OCC, he held
     economist positions with the Treasury Department and Federal
     Reserve System. We determined that the qualifications of the OCC
     staff responsible for economic analysis supporting its rulemaking
     processes are sufficient.

7.   Review of the economic analysis, if any, conducted in connection
     with OCC rulemaking regarding the following proposed rules: Credit
     Risk Retention, 76 FR 24090 (April 29, 2011); Risk-Based Capital
     Standards: Advanced Capital Adequacy Framework – Basel II,
     Establishment of a Risk-Based Capital Floor, 75 FR 82317 (Dec.
     30, 2010); and Margin and Capital Requirements for Covered Swap
     Entities, 76 FR (April 12, 2011). The review should place particular
     emphasis on (a) the quantitative methodologies OCC uses to
     evaluate the costs and benefits of proposed rules and the effects
     those rules could have on job creation and economic growth;
     (b) the qualitative methods OCC uses to categorize or rank the
     effects of proposed rules; (c) the extent to which OCC considers
     alternative approaches to its proposed rules; (d) the extent to
     which OCC examines the costs, benefits, and economic impact of
     reasonable alternatives to its proposed rules; (e) the extent to
     which OCC seeks public input and expertise in evaluating the
     costs, benefits, and economic impact of its proposed rules, and the
     extent to which OCC incorporates the public input into its rule
     proposals; and (f) the extent the economic analysis performed by
     OCC with respect to its proposed rulemakings is transparent and
     the results reproducible.

     We reviewed the economic analysis performed in connection with
     three OCC proposed rules listed in the May 4, 2011, request for

     Congressional Request for Information Regarding Economic Analysis by OCC   Page 7
     (OIG-CA-11-006)
                       information. We determined that OCC used quantitative and
                       qualitative methodologies; considered alternatives and the impact
                       of the alternatives; sought public input; and that OCC rulemaking
                       was transparent and the results were generally reproducible.
                       Specifics on these matters are detailed below.
                       a. Quantitative methodologies OCC uses to evaluate the costs and
                          benefits of proposed rules and the effects those rules could
                          have on job creation and economic growth: Quantitative
                          methodologies used by OCC to determine the potential costs of
                          proposed regulations are discussed below. It should be noted
                          that the benefits cited for the proposed rules were generally
                          qualitative statements.
                           •   Credit Risk Retention, OCC:
                               • Used variables from national bank Call Report 8 data that
                                  reflected possible bank securitization activity
                               • Aggregated relevant data from Call Reports, and
                                  determined 208 institutions with possible bank
                                  securitization activity are national banking organizations
                               • Created a formula to estimate the amount of retained risk
                                  for these national banks
                               • Estimated the opportunity cost to national banks from
                                  lost lending fees and estimated administrative costs

                           •   Risk-Based Capital Standards: Advanced Capital Adequacy
                               Framework – Basel II, Establishment of a Risk-Based Capital
                               Floor (referred hereafter as “Risk-Based Capital Standards”),
                               OCC:
                               • Used Call Report data to determine the number of bank
                                  holding companies that met size conditions for mandatory
                                  adoption of advanced approach rules (10 bank holding
                                  companies in total were identified)
                               • Used Call Report data to estimate greatest annual impact
                                  to affected national banks at 5 percent cost of capital



8
  Reports of Condition and Income, referred to as Call Reports, are required by statute (12 U.S.C. § 161
for national banks) and collected by the Federal Deposit Insurance Corporation under the provision of
Section 1817(a)(1) of the Federal Deposit Insurance Act. Call Report information is extensively used by
the bank regulatory agencies in their daily offsite bank monitoring activities.

                       Congressional Request for Information Regarding Economic Analysis by OCC   Page 8
                       (OIG-CA-11-006)
                         •   Margin and Capital Requirements for Covered Swap Entities,
                             OCC:
                             • Used variables from Call Report Schedule RC-L,
                               Derivatives and Off Balance Sheet Items, that reflected
                               swap activity
                             • Aggregated institutions by their top tier holding company 9
                             • Identified impacted institutions (74 impacted institutions
                               in total were identified) using Commodity Futures Trading
                               Commission and Securities and Exchange Commission’s
                               proposed regulatory definitions of swap dealers to
                               determine number of banking institutions excluded from
                               rule
                             • Estimated total initial margin required for national banks
                               ($2.05 trillion in total initial margin was estimated)

                         The quantitative methodologies described above were focused
                         on quantifying costs to national banks rather than effects on job
                         creation and economic growth. These effects were not
                         specifically addressed.

                     b. Qualitative methods OCC uses to categorize or rank the effects
                        of proposed rules: OCC did not use qualitative factors to
                        determine the effects of the proposed rules as part of the
                        economic analyses for the Credit Risk Retention and Risk-Based
                        Capital Standards proposed rules as neither exceeded the
                        threshold for significant regulation and therefore did not require
                        a full cost/benefit analysis. OCC did use qualitative factors
                        when determining the benefits for the economic analysis
                        conducted for the Margin and Capital Requirements for Covered
                        Swap Entities proposed rule. The factors that OCC did use were
                        (1) ensuring the safety and soundness of the swap entity,
                        (2) reducing the uncertainty regarding the possible exposure to
                        swap entities, and (3) reducing the ability of firms that lack
                        sufficient financial resources to use the swap market to take on
                        excessive risks.


9
  In some cases a holding company may own another holding company which owns a national bank. So,
if holding company A owned holding company B which owned a national bank, the aggregated
information would be presented under holding company A. In this case, company A would be
considered the bank’s top tier holding company.

                     Congressional Request for Information Regarding Economic Analysis by OCC   Page 9
                     (OIG-CA-11-006)
c. The extent to which OCC considers alternative approaches to
   its proposed rules: The Credit Risk Retention and Risk-Based
   Capital Standards proposed rules did not exceed significant
   regulation thresholds so an evaluation of alternative approaches
   was not required nor performed. The economic analysis for the
   Margin and Capital Requirements for Covered Swap Entities
   proposed rule included an evaluation of alternatives. These
   alternatives considered the impact of varying the threshold
   amount used to determine the swap entities that would be
   subject to the proposed rule and of varying the minimum
   transfer amount. The impact of varying the threshold amount
   was quantified but OCC concluded that it lacked sufficient
   information to quantify the effect of varying the minimum
   transfer amount.

d. The extent to which OCC examines the costs, benefits, and
   economic impact of reasonable alternatives to its proposed
   rules: As discussed in c. above, OCC was not required to
   evaluate alternative approaches to its proposed rules for Credit
   Risk Retention and Risk-Based Capital Standards. Accordingly,
   OCC also was not required to, and did not, assess the economic
   impact for these two rules. For the Margin and Capital
   Requirements for Covered Swap Entities proposed rule, OCC’s
   economic analysis did include an evaluation as to the economic
   impact for the alternatives it considered.

e. The extent to which OCC seeks public input and expertise in
   evaluating the costs, benefits, and economic impact of its
   proposed rules, and the extent to which OCC incorporates the
   public input into its rule proposals: OCC solicited public input for
   the three proposed rules listed in the May 4, 2011, request for
   information. At the time of this review, the comment periods for
   the Credit Risk Retention and the Margin and Capital
   Requirements for Covered Swap Entities proposed rules had not
   ended, so OCC has not yet had the opportunity to evaluate the
   impact of the comments it received. The comment period for
   the Risk-Based Capital Standards proposed rule had been
   completed and, at the time of this review, OCC was in the
   process of evaluating comments it received.


Congressional Request for Information Regarding Economic Analysis by OCC   Page 10
(OIG-CA-11-006)
     f. The extent to which the economic analysis performed by OCC
        with respect to its proposed rulemakings is transparent and the
        results are reproducible: Based on our review of OCC’s
        economic analysis of the three proposed rules listed in the
        May 4, 2011, request for information and discussions with OCC
        Policy Analysis Division personnel, we found OCC rulemaking is
        transparent and the results are generally reproducible. OCC
        personnel responsible for the PRA submission indicated that
        portions of the analysis are based on supervisory experience
        and therefore may not always be reproducible by a third party.

     During our review, we noted differences between the
     administrative burden calculated for PRA purposes and that
     calculated in the economic impact analysis for the Credit Risk
     Retention and the Margin and Capital Requirements for Covered
     Swap Entities proposed rules. For the Credit Risk Retention
     proposed rule, the administrative burden calculated for PRA
     purposes was 20,483 hours while the administrative burden
     calculated for the impact analysis was 12,000 hours. For the
     Covered Swap Entities proposed rule, the PRA analysis estimated
     20 entities would be impacted by the rule change while the impact
     analysis estimated there would be 74 entities impacted.

     It should be noted that PRA analysis is required to focus on
     statutorily-defined “collection of information” burdens imposed on
     “respondents,” whereas those terms are not applicable to the
     impact analysis, which focuses on economic costs of
     administrative burden on all entities subject to the rule. In this
     regard, the administrative burden calculated for PRA analysis is not
     performed by the same OCC division that prepares the economic
     analysis for the proposed regulation. With that in mind, we believe
     that the administrative burden calculations should be coordinated
     and, when differences exist, documented as to why.

8.   Description of any additional steps that OCC would have to take if
     it were subject to Executive Orders 13563 and 12866 and
     associated Office of Management and Budget guidance.

     If OCC was subject to EO 13563, Improving Regulation and
     Regulatory Review, and EO 12866, and OMB Circular A-4, it would

     Congressional Request for Information Regarding Economic Analysis by OCC   Page 11
     (OIG-CA-11-006)
                       have to submit a Notice of Proposed Regulatory Action for each
                       rulemaking to OMB’s Office of Information and Regulatory Affairs
                       (OIRA). OCC would also have to submit all rules that it determines
                       to be “significant regulatory actions,” 10 to OIRA for review.
                       OCC was subject to EO 12866 prior to the Dodd-Frank Act.
                       Accordingly, the requirements for economic analysis defined in
                       OCC’s rulemaking guide generally mirror those of EO 12866 and
                       OMB Circular A-4. It should be noted that OCC was never subject
                       to EO 13563 11 as that order was issued after the Dodd-Frank Act
                       was enacted.

                 9.    Assessment of the extent to which OCC is considering cumulative
                       burden of all Dodd-Frank rulemakings on market participants and
                       the economy.

                       OCC has not performed any economic analyses as to cumulative
                       impact of all Dodd-Frank Act rulemakings on market participants
                       and the economy. Nevertheless, OCC officials did tell us that the
                       question of cumulative burden has been considered and discussed.
                       That said, OCC believes that it is effectively impossible to assess
                       the cumulative impact at this time because no final rules have been
                       adopted.




10
   EO 12866 defines “significant regulatory action” as any regulatory action that is likely to result in a
rule that may: (1) have an annual effect on the economy of $100 million or more, or have a material
adverse effect on the economy, a sector of the economy, productivity, competition, jobs, the
environment, public health or safety, or State, local, or tribal governments or communities; (2) create a
serious inconsistency or interfere with another agency’s actions; (3) materially alter the budgetary
impact of entitlements, grants, user fees, or loan programs, or the rights and obligations of recipients
thereof; or (4) raise novel legal and policy issues.
11
   Issued January 18, 2011, EO 13563 supplements and reaffirms the principles, structures, and
definitions governing contemporary regulatory review that were established in EO 12866. Among other
things, the EO requires that regulations are to be adopted through a process that involves public
participation. The EO also includes provisions for integration and innovation, flexible approaches,
objectivity of any scientific and technological information and processes used to support an agency’s
regulatory actions, and retrospective analyses of existing rules.

                       Congressional Request for Information Regarding Economic Analysis by OCC    Page 12
                       (OIG-CA-11-006)
Recommendations

           We recommend that Comptroller of the Currency:

           1. Develop procedures to ensure the coordination between the
              groups calculating administrative burden for various analyses
              and ensure that differences in results are adequately explained
              and that the explanation is included in OCC’s rulemaking record.

           2. Update the OCC Guide to Rulemaking Procedures: A Staff
              Manual to reflect the current statutory environment governing
              the rulemaking and related economic analysis processes,
              including OCC’s designation as an independent regulatory
              agency for purposes of Federal Information Policy. Additionally,
              OCC’s Policy Analysis Division should develop written
              procedures covering the preparation, documentation, and
              approval of economic analysis used in the rulemaking process.

           Management Response

           OCC concurred with our recommendations and agreed to make
           enhancements to OCC procedures for rulemaking, including the
           related economic analysis. OCC stated that new and updated
           written procedures would be in place by September 30, 2011.

           OIG Comment

           We consider OCC’s planned actions to be responsive to our
           recommendations.




           Congressional Request for Information Regarding Economic Analysis by OCC   Page 13
           (OIG-CA-11-006)
                                * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the review. If you wish to discuss the report, you may
contact me at (202) 927-0384 or James Lisle, Audit Manager, at
(202) 927-6345. Major contributors to this report are listed in
appendix 2.




Jeffrey Dye /s/
Director of Banking Audits




Congressional Request for Information Regarding Economic Analysis by OCC   Page 14
(OIG-CA-11-006)
Appendix 1
Request to the Inspector General of the Department of the Treasury for
Information Regarding Economic Analysis by the Office of the Comptroller of the
Currency




Congressional Request for Information Regarding Economic Analysis by OCC   Page 15
(OIG-CA-11-006)
Appendix 1
Request to the Inspector General of the Department of the Treasury for
Information Regarding Economic Analysis by the Office of the Comptroller of the
Currency




Congressional Request for Information Regarding Economic Analysis by OCC   Page 16
(OIG-CA-11-006)
Appendix 1
Request to the Inspector General of the Department of the Treasury for
Information Regarding Economic Analysis by the Office of the Comptroller of the
Currency




Congressional Request for Information Regarding Economic Analysis by OCC   Page 17
(OIG-CA-11-006)
Appendix 1
Request to the Inspector General of the Department of the Treasury for
Information Regarding Economic Analysis by the Office of the Comptroller of the
Currency




Congressional Request for Information Regarding Economic Analysis by OCC   Page 18
(OIG-CA-11-006)
Appendix 1
Request to the Inspector General of the Department of the Treasury for
Information Regarding Economic Analysis by the Office of the Comptroller of the
Currency




Congressional Request for Information Regarding Economic Analysis by OCC   Page 19
(OIG-CA-11-006)
Appendix 2
Management Comments




Congressional Request for Information Regarding Economic Analysis by OCC   Page 20
(OIG-CA-11-006)
Appendix 3
Major Contributors To This Report




James Lisle, Audit Manager
Adelia Gonzales, Auditor
Olivia Scott, Auditor
Kathryn Bustell, Auditor
Alex Taubinger, Referencer




Congressional Request for Information Regarding Economic Analysis by OCC   Page 21
(OIG-CA-11-006)
Appendix 4
Report Distribution




Department of the Treasury

    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs




Congressional Request for Information Regarding Economic Analysis by OCC   Page 22
(OIG-CA-11-006)
